Audit Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services
Grants to the Morehouse Parish
Sheriff's Department
Bastrop, Louisiana

GR-80-01-012
May 11, 2001
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Morehouse Parish Sheriff's Department (MPSD).  The purpose of the grants is to enhance community policing.  The MPSD was awarded a total of $1,003,275 to hire 16 new officers and redeploy the equivalent of 1 existing full-time officer from administrative duties to community policing.

We reviewed the MPSD's compliance with seven essential grant conditions and found that the MPSD complied with grant requirements with respect to local match requirements, and the types of community policing activities performed.  We found weaknesses in the following areas we tested:  budgeting for local law enforcement, hiring of additional officers, reimbursement requests, retention of officer positions, and redeployment tracking.  As a result of the deficiencies identified below, we question $542,924 in grant funds received. 1

Total funds budgeted for local law enforcement decreased from the prior year in FYs 1999 and 2001.  Additionally, the funds provided for local salaries and benefits decreased from the prior year in FYs 1996, 1998, 1999 and 2001.

	The MPSD did not increase its law enforcement force by the number of officers funded by the COPS hiring grants.  In our judgment, the grantee is in violation of COPS' non-supplanting requirement resulting in questioned costs of $280,276.
 
	The MPSD did not accurately account for program costs; as a result, we had to calculate allowable program costs from the MPSD's payroll records.  Based on our calculations, we determined that reimbursements received by the MPSD exceeded the federal share of allowable program costs by $15,390.

	The MPSD did not retain 4 of the 12 now expired UHP positions, resulting in questioned costs of $247,258.  Additionally, the MPSD did not have any formalized plans to retain the UHP funded officer positions for its award which has not expired.

	The MPSD purchased computer technology in January 2000 in accordance with its MORE 98 grant; however, it had not yet redeployed the one sworn officer equivalent FTE and did not have a system in place to track redeployment.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.






Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and a definition of questioned costs.